Supreme Court, U.S.
FILED

91

NOV 2 it 2020

IN THE SUPREME COURT OF THE UNITED STATE SOFFICE OF THE CLERK
SUPREME COURT CASE NO.
TACARA ANDERSON, on behalf of minor child, MA, Petitioner v. OFFICER JONATHAN
VAZQUEZ, Respondent.

WAIVER

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one
is requested, the response will be filed by a Bar member.

Please enter my appearance as Counsel of Record for the respondent.

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

Signature
Date
/
JOSEPH P. PATNER
FBN: 831557
Executive Assistant City Attorney
Attorney for Defendant
P. 0. Box 2842
St. Petersburg, Florida 33731
(727) 893-7401, FAX: (727) 892-5262
Joseph.Patner@stpete.org
eservice@stpete.org
A COPY OF THIS FORM HAS BEEN SENT TO PETITIONER'S COUNSEL:
Michael P. Maddux, Esquire
2102 West Cleveland Street
Tampa, Florida 33606

RECEIVED
DEC 0 7 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

